AFFIDAVIT OF SERVICE
STATE OF NEW YORK
COUNTY OF WESTCHESTER

)
)
)

Brian R. Landy, Jr., being duly sworn, deposes and says that deponent is not a
party to the action, is over 18 years of age, and resides at 38 Davis Avenue,
Rye, New York 10580.
That on the 10th day of May, 2021 deponent served the within:
PETITION FOR A WRIT OF CERTIORARI
upon designated counsel for the parties indicated herein at the addresses
provided below by depositing 1 true copy thereof enclosed in a post-paid
wrapper, in an official depository under the exclusive care and custody of the
U.S. Postal Service within New York State.
JONATHAN P. BACH
LAUREN M. CAPACCIO
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
Attorneys for Defendants-Appellees
Affymetrix and Applied Biosystems
CHARLES T. GRAVES
MATTHEW GORMAN
WILSON SONSINI GOODRICH &
ROSATI
Professional Corporation
One Market Plaza, Spear Tower,
Suite 3300
San Francisco, California 94105
(415) 947-2000
Attorneys for Defendant-Appellee
Stephen P.A. Fodor

ROBERT P. HANEY, JR.
JAY I. ALEXANDER
SWATI R. PRAKASH
COVINGTON & BURLING LLP
The New York Times Building
620 Eighth Avenue
New York, New York 10018
(212) 841-1000
Attorneys for Defendants-Appellees
Illumina, Inc., Jay T. Flatley,
David R. Walt, Kevin Gunderson,
Jian-Bing Fan, Mark Chee, Robin
M. Silva and John R. Stuelpnagel

Sworn to before me this
10th day of May, 2021

/s/ Eric R. Larke

Eric R. Larke
Notary Public, State of New York
No. 01LA5067236
Qualified in Westchester County
Commission Expires March 5, 2023

/s/ Brian R. Landy, Jr.
Brian R. Landy, Jr.

16116

